1
No.

IN THE
SUPREME COURT OF THE UNITED STATES

CLARENCE JACKSON - PETITIONER
Vs

DISTRICT OF COLUMBIA COURT OF APPEALS ADMISSIONS
COMMITTEE, et. al.

Proof of Service

RECEIVED
DEC 2 3 2020

I, Clarence Jackson , do swear or declare that on this dati
as required by the Supreme Court Rule 29,1 have served the
enclosed Motion For Leave To Proceed In Forma Pauperis and Petition For Writ
Of Certiorari on each party to the above proceeding or that party's counsel,
and on every other person required to be served , by depositing an envelope
containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid , or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days .

December8,2020

The names and addresses of those served are as follows :

f
Karl Racine, D.C. Attorney General
441 4th Street, NW
Washington , D.C. 20001

District of Columbia
Court of Appeals
Committee On Admissions
430 E. Street NW, RM 123
Washington, D.C. 20001

Executive Office -Office of The Mayor
For The District of Columbia
John A. Wilson Building
1350 Pennsylvania Ave., NW
Washington, D.C. 20004
Clerk Office
U.S. Court Of Appeals
For The District Of Columbia
333 Constitution Ave, NW
Washington, D.C. 20004

District Court Judge
For The District Of Columbia
Amit Mehta
333 Constitution Ave., NW
Washington, D.C. 20004

I, declare under penalty of perjury that the foregoing is true and correct.

Executed on December 8, 2020

Signature

